<html>
<title> - THE AMERICAN COMMUNITY SURVEY: THE CHALLENGES OF ELIMINATING THE LONG FORM FROM THE 2010 CENSUS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 THE AMERICAN COMMUNITY SURVEY: THE CHALLENGES OF ELIMINATING THE LONG 
                       FORM FROM THE 2010 CENSUS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2003

                               __________

                           Serial No. 108-97

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 _____

                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
91-645 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Scott Klein, Professional Staff Member
                      Ursula Wojciechowski, Clerk
           David McMillen, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2003.....................................     1
Statement of:
    Cooper, Kathleen, Under Secretary for Economic Affairs, U.S. 
      Department of Commerce; and C. Louis Kincannon, Director, 
      U.S. Census Bureau.........................................     9
    Reardon, Thomas, executive director, Fulton County 
      Partnership, McConnellsburg, PA; Dr. Joseph Salvo, 
      director, population division, New York City Department of 
      City Planning; Joan Naymark, director, research and 
      planning, Target Corp., testifying on behalf of the U.S. 
      Chamber of Commerce; Ken Hodges, director of demography, 
      Claritas; and Richard Ogburn, principal planner, South 
      Florida Regional Planning Council..........................    31
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     8
    Cooper, Kathleen, Under Secretary for Economic Affairs, U.S. 
      Department of Commerce, prepared statement of..............    12
    Hodges, Ken, director of demography, Claritas, prepared 
      statement of...............................................    69
    Kincannon, C. Louis, Director, U.S. Census Bureau, prepared 
      statement of...............................................    18
    Naymark, Joan, director, research and planning, Target Corp., 
      testifying on behalf of the U.S. Chamber of Commerce, 
      prepared statement of......................................    54
    Ogburn, Richard, principal planner, South Florida Regional 
      Planning Council, prepared statement of....................    74
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Reardon, Thomas, executive director, Fulton County 
      Partnership, McConnellsburg, PA, prepared statement of.....    34
    Salvo, Dr. Joseph, director, population division, New York 
      City Department of City Planning, prepared statement of....    42


 THE AMERICAN COMMUNITY SURVEY: THE CHALLENGES OF ELIMINATING THE LONG 
                       FORM FROM THE 2010 CENSUS

                              ----------                              


                         TUESDAY, MAY 13, 2003

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam and Clay.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Scott Klein, Chip Walker, Lori Martin, and Casey 
Welch, professional staff members; Ursula Wojciechowski, clerk; 
Susanne Lightman, fellow; Bill Vigen, intern; David McMillen, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Putnam. A quorum being present, this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order.
    Good morning and welcome to today's hearing entitled, ``The 
American Community Survey: The Challenges of Eliminating the 
Long Form From the 2010 Census.''
    The census is one of the oldest civic ceremonies of our 
Nation. The enumeration of our resident population is set forth 
in Article I, Section 2, in our Constitution. The first census 
was conducted in 1790 under the direction of Thomas Jefferson. 
That census was conducted by U.S. marshals on horseback and 
counted 3.9 million inhabitants.
    The modern-day census is the largest peacetime mobilization 
of manpower America undertakes. In 2010, rather than riding 
horseback, enumerators will carry with them mobile computing 
devices. Although the basic fundamental notion of enumerating 
our population has not changed, the way in which the Census 
Bureau conducts this enumeration certainly has.
    The census has adapted over time to the continually 
changing needs of our Nation for timely, quality data. In 1940, 
we saw the introduction of the long form. The long form has 
provided volumes of data for users from Federal, State and 
local governments to businesses and universities. The Congress 
and specifically this subcommittee is being asked to consider 
whether or not it's time for another significant evolution in 
the way we conduct the census, the elimination of the long form 
and the introduction of the American Community Survey.
    The Census Bureau has been developing the ACS since the 
1990's, and in recent years has worked closely with Congress 
and with many outside interest groups and data users in its 
development. By most accounts, the data users' community is 
supportive of the American Community Survey and its full 
implementation by the Congress.
    The Census Bureau began developing the ACS in the mid-
1990's and has been collecting data in a development program 
since 1996. The goals of the ACS, as stated by the Census 
Bureau, are: Provide Federal, State and local governments an 
information base for the administration and evaluation of 
government programs; eliminate the long form from the 2010 
census, thereby facilitating improvements of the accuracy by 
allowing the decennial census to focus on counting the 
population by simply using the short form; and provide data 
users with timely demographic housing, social and economic 
statistics updated every year that can be compared across State 
communities and population groups.
    I would also add a goal that is critical if ACS is going to 
receive the necessary funding from Congress for full 
implementation. The Census Bureau must demonstrate to both the 
authorizers and appropriators that fully funding the ACS will 
eliminate duplicative survey at the Census Bureau, and in this 
arena alone the taxpayer will recognize savings.
    I simply would find it unbelievable that no surveys could 
be eliminated with the advent of the ACS. Eliminating redundant 
surveys would send a clear message to Congress that the Census 
Bureau is truly dedicated to making the American Community 
Survey top of the class and not just another survey.
    To be sure there are still some serious issues to mitigate 
beyond the mere cost, one of those issues is privacy. As an 
elected official, I understand that in order for governments to 
make informed decisions when spending hard-earned tax dollars, 
governments need timely and reliable data on which to base 
those decisions. At the same time, I understand how important 
people's privacy is to them. In many aspects of my work 
chairing this subcommittee, integrating technology, information 
and security needs with the right to privacy of Americans has 
been at the forefront.
    Generally speaking, government has a tremendous challenge 
ahead of it: How to obtain the information that is needed to 
make informed decisions while at the same time respecting the 
privacy rights of the public. The Census Bureau needs to be at 
the forefront of overcoming these challenges. The Bureau, to 
its credit, has the most protective privacy law on the books. 
All personal census information, including the American 
Community Survey, is not shared with anyone for 72 years.
    That said, I don't know if that will continue to be 
sufficient in convincing people to participate in this survey. 
I don't suggest that the law needs to be strengthened 
necessarily, but rather the Census Bureau should seriously 
explore new and innovative ways to solicit voluntary 
cooperation from the residents of the Nation.
    I know that the Census Bureau, the Congress, the public and 
private data users and partnership groups have done a lot of 
work on the ACS. I'm also aware that we are rapidly approaching 
a point where the Census Bureau needs to know if there will be 
a long form in the 2010 census or if the ACS will be the new 
survey tool. It is fundamental to a successful 2010 census that 
we let the Census Bureau know as soon as possible how the 
Congress expects the census to be conducted. I'm hopeful that 
we can continue to work together to resolve these issues, and 
that Congress can make a final determination on full funding 
for the ACS in the very near future.
    As with most of our hearings, today's hearing can be viewed 
live via Web cast by going to reform.house.gov and clicking on 
the link under ``Live Committee Broadcast.''
    I appreciate the gentleman from Missouri, the ranking 
member of this subcommittee, for his attendance here and his 
support of the committee's work, and I recognize him for his 
opening statements.
    [The prepared statement of Hon. Adam H. Putnam follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Clay. Thank you, Mr. Chairman, for calling this 
hearing.
    As you may know, I hosted a meeting in St. Louis 2 years 
ago, so that the Census Bureau could explain the survey to a 
wide cross-section of business and community leaders in our 
State. We had over 100 people who attended that session, and 
all were very interested in the possibilities promised by the 
American Community Survey, both Acting Director Barron and 
Director Kincannon were instrumental in making the arrangements 
for the forum, and I'd like to thank the witnesses on this 
panel and the next for taking their time to appear before us 
today.
    I hope this hearing will improve our understanding of this 
complex survey.
    The last hearing we had on this issue was just about 2 
years ago. At that time, the committee was concerned about the 
cost of the survey, the length of the questionnaire and the 
fact that answering the survey was mandatory. Witnesses raised 
questions about the quality of the information produced by the 
survey, the complexity of those data for small places, and 
fears that either dwindling appropriations or cost overruns 
would result in a survey that was less useful than promised.
    Unfortunately, many of those questions remain on the table 
today. The good news is that we have 2 more years' worth of 
experience and data with which to answer those questions.
    This survey is a bold undertaking. Over the 10-year census 
cycle, this survey will cost between $1.5 and $2 billion. It is 
important that Congress recognize the full cost of the survey. 
Funding it for a year or two won't do anyone much good. If we 
are to go forward, we must do so recognizing and committing to 
the full cost of the survey.
    I look forward to today's testimony, and I hope that many 
of these questions will be put to rest today.
    Thank you, Mr. Chairman, and I ask that my full statement 
be included in the record.
    Mr. Putnam. Without objection, it will be inserted at 
appropriate place in the record.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. We'll now begin with the first panel. Each of 
you has submitted written testimony which will be included in 
the record of this hearing. I've asked that you summarize your 
oral testimony in 5 minutes so to leave ample time for 
questions and dialog.
    You have a light on your table. All of you are familiar 
with the lighting system. The green light means, begin your 
remarks; yellow light means, it's time to start wrapping up; 
and red light means, your time has expired.
    As is the custom with this committee and its subcommittees, 
we'll swear in the witnesses. We'll ask the first panel and 
those who will be providing you any corollary support or 
whispering in your ear, whatever, would be asked to be sworn 
in, as well.
    So please stand, raise your right hands.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record the witnesses responded in 
the affirmative.
    Operating under the lady's-first rule, we will begin with 
the Honorable Kathleen Cooper.
    As the Commerce Department's Under Secretary for Economic 
Affairs, Ms. Cooper serves as the principal economic adviser 
for Secretary Don Evans and is CEO of a 7,000-employee 
organization that gathers, calculates and disseminates much of 
the U.S. demographic social and economic data. Business 
leaders, policymakers, indeed, all Americans, base decisions on 
the information in Dr. Cooper's purview, including reports on 
the Nation's GDP, retail sales, personal income, housing 
starts, inventory levels and international trade.
    She is the Administrator of the Economics and Statistics 
Administration and oversees two statistical agencies, the 
Bureau of Economic Analysis and the Census Bureau, and the 
Internet information resource, STAT-USA.
    Her priorities included advising Secretary Evans on 
economic trends and policy and communicating the President's 
economic agenda, retaining and improving the high quality of 
the Nation's indicators and reengineering the decennial census 
by planning for an accurate short-form-only census in 2010.
    Prior to joining the Bush administration, Dr. Cooper was 
the chief economist and manager of the economics and energy 
division at Exxon Mobil Corp., where she advised corporate 
leadership on the global business environment and energy 
markets and developed the appropriate assumptions for planning 
purposes.
    Dr. Cooper holds a bachelor's degree in mathematics and 
master's degree in economics from the University of Texas at 
Arlington and a doctorate in economics from the University of 
Colorado.
    Welcome to the subcommittee. You're recognized.

  STATEMENTS OF KATHLEEN COOPER, UNDER SECRETARY FOR ECONOMIC 
 AFFAIRS, U.S. DEPARTMENT OF COMMERCE; AND C. LOUIS KINCANNON, 
                  DIRECTOR, U.S. CENSUS BUREAU

    Ms. Cooper. Thank you very much, Chairman Putnam, Mr. Clay. 
As you noted, my name is Kathleen Cooper, and I have the 
privilege of serving as the Under Secretary for Economic 
Affairs at the Department of Commerce, and I'm here today to 
explain why the administration and the Department of Commerce 
believe so strongly in the American Community Survey.
    But I'm here today to explain why the administration and 
the Department of Commerce believes so strongly in the American 
Community Survey. Quite simply, the old system, leaving us with 
10-year-old data, is simply not good enough for the world's 
largest and strongest economy.
    Secretary Evans has made it clear that he values the most 
timely and accurate economic and demographic data. The 
President's budget for ACS will revolutionize both how we take 
an every-10-year census and how Americans use these data 
products.
    The Census Bureau is a premier statistical agency in the 
world. It took an excellent census in 2000 which produced long 
form data on which policymakers, businesses and families are 
today basing important decisions, but as late as 1 year ago, 
you and I and our fellow citizens had only data from 1990. 
Already data gathered in April 2000 grows stale; we can do 
better.
    The professionals at the Census Bureau have a better way. 
The American Community Survey is a developed and tested 
program; since 1996, the Census Bureau has tested the ability 
of the ACS to deliver annually the high-quality data that we 
need for even the smallest community. And that is indeed the 
difference: data every year for cities and towns of every size.
    There are 31 test sites where the ACS is up and running. 
You will hear from leaders of some of those communities in the 
next panel, and I'm confident they will give you real-life 
examples that show the quality of the ACS data.
    Dramatic changes do not wait. People are born, they grow 
up, wed, move, start families, open businesses, retire and die. 
There are plant openings, hurricanes, floods, base closings, 
new shopping malls, new interstate highways and other events 
taking place on a daily basis, changing the life of a 
community.
    And, in fact, as I sit before you today, New York City, 
especially lower Manhattan, has changed in profound ways that 
have yet to be measured. You will hear shortly from Dr. Joe 
Salvo, a noted New York City planner. The census 2000 data that 
he must use now are essentially matters of history.
    Long-form data are a wonderful snapshot. The ACS will be a 
moving video image. The American Community Survey questionnaire 
is essentially the same as the long form from census 2000, 
because the data must meet the same statutory and regulatory 
obligations. The Bureau has worked many years with other 
Federal agencies to ensure that the answers to those questions 
will provide the data to meet these requirements.
    We are often ridiculed for asking questions that some 
believe to be intrusive--for instance, does this house, 
apartment or mobile home have complete plumbing facilities? The 
Department of Health and Human Services, Indian Health Service 
and Housing and Urban Development use these answers to 
determine public health policy and the condition of housing in 
remote areas and in low-income neighborhoods.
    Some may not understand why we ask questions such as: At 
what location did this person work last week? How did this 
person usually get to work last week? What time did this person 
usually leave home to go to work last week?
    But answers to these questions provide the basis for 
commuting data required by the Highway Safety Act and the 
Transportation Equity Act of the 21st century. Answers provide 
the information to describe the geographic patterns of commuter 
travel and the volume of travel between communities. 
Evaluations of traffic congestion, air quality, public 
transportation needs are developed from answers to these 
questions.
    Folks are sometimes reluctant to provide income data, but 
answers feed low-income children by way of a National School 
Lunch Program, and answers heat low-income homes in the winter 
through the Low-Income Home Energy Assistance Program.
    All questions were evaluated by a content working group 
organized by the Office of Management and Budget. In addition, 
the Department of Commerce took the unprecedented step to seek 
affirmation of these needs from the legal offices of each 
department or agency; and this notebook--with your permission, 
Mr. Chairman, I'd like to enter the results that are included 
in this notebook into the record, indicating diverse uses for 
American Community Survey data.
    Each of these questions meets data needs that are required 
by statute, regulation or court decision.
    Mr. Putnam. Is there an objection?
    Mr. Clay. No.
    Mr. Putnam. Your information will be included at the 
appropriate point in the record.
    Ms. Cooper. Thank you, Congressman.
    These answers do not belong to the government. They belong 
to all Americans. Just the other day I read of a man who, at 
age 57, suddenly found himself an out-of-work executive in a 
market full of out-of-work executives. Since a new job that 
duplicated his income and title seemed out of reach, he and his 
wife decided to start a business instead. They investigated 
options and staked $20,000 into their new enterprise. Then 
according to Forbes magazine, they plowed through census data, 
looking for markets with demographic characteristics of those 
interested in their product.
    As this example illustrates, access to yearly data can help 
businesses grow, help governments adapt and help Congress 
legislate. The administration believes ACS is the way to go. 
The Census Bureau has done great work, and Secretary Evans and 
I hope very much that Congress will support ACS.
    And, with that, I thank you and would be happy to answer 
questions at the appropriate time.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Cooper follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. At this time, we'll recognize Mr. Lewis 
Kincannon, Director of the U.S. Census Bureau.
    Mr. Kincannon began his career as an a statistician at the 
Census Bureau in 1963, after graduating from UT-Austin--a 
couple of Texas grads here. Mr. Kincannon held positions of 
leadership at the Census Bureau and also with the Office of 
Management and Budget. He served as Deputy Director of the 
Census Bureau during the 1980's and as the Acting Director 
during the crucial final phase of preparation for the 1990 
census.
    Throughout his career with the Federal Government, Mr. 
Kincannon sought to strengthen the relationships between 
statistical agencies as well as data users in order to produce 
timely, relevant data that informs public policy and 
decisionmaking.
    In October 1992, Mr. Kincannon was appointed as the first 
chief statistician in the Organization for Economic Cooperation 
and Development [OECD], in Paris to coordinate the 
organization's statistical programs as well as advise the 
Secretary General on statistical policy. During that time, he 
encouraged the cooperation and understanding among statistical 
agencies, underscoring the larger relationships between 
Nations.
    He returned to the United States in June 2000 after leaving 
his post. President Bush nominated Mr. Kincannon for Director 
of the Census Bureau last year, and the Senate unanimously 
confirmed him on March 13, 2002.
    Perhaps you could advise some of the judicial nominees on 
how to accomplish that.
    The Census Bureau collects the data used by policy and 
decisionmakers that affect the lives of every person living in 
America. Mr. Kincannon is leading the agency's efforts to 
reengineer the decennial census, as well as update the 
collection of economic and demographic data in order to reflect 
America's diverse and changing society.
    With that, you're recognized for your opening remarks. 
Welcome.
    Mr. Kincannon. Good morning. Thank you, sir. Thank you, and 
on behalf of the Census Bureau, I'd like to thank the whole 
committee for inviting me to testify this morning. This is an 
important opportunity to bring you up to date on the progress 
that the Census Bureau has made with the American Community 
Survey.
    Is this now showing up on sound? Good. I'll try to keep it 
close.
    It is also important to highlight the fundamental and 
intrinsic role of the American Community Survey in a successful 
decennial census in 2010. After all, these components of a 
redesigned 2010 census have one goal: to provide the data that 
will serve America's needs in the 21st century.
    Mr. Chairman, this is a rapidly changing nation, as you 
well know, and it has urgent needs for timely data. In Florida, 
for example, during the 1990's, the population expanded 
substantially, changing the composition of many communities. In 
Brandon, for example, the number of persons who do not speak 
English at home more than doubled from approximately 5,000 to 
more than 11,000.
    Closer to Washington, Loudoun County, VA was among the 
fastest growing counties in the Nation. The population grew by 
96 percent between 1990 and 2000, and that meant far more than 
simply just congestion on Route 7. The school system, as an 
example, in an attempt to keep pace with the needs of a growing 
student population, had already taken its own census before the 
long form results for 2000 were published.
    The good news is that the Census Bureau is moving to 
improve dramatically the way we deliver crucial and important 
data on the characteristics of our population. With the 
American Community Survey, we will eliminate the long form by 
collecting these data every year. While this will change the 
way that we get our information, we will continue to provide 
the same long-form-type data that are used throughout 
government and in the private sector. The real difference is 
that once fully implemented, the American Community Survey will 
offer data updated every year for every neighborhood throughout 
the country.
    The President's budget for 2004 includes funding to 
implement the American Community Survey at full sample size 
next year in the final quarter of the fiscal year. The American 
Community Survey will provide data for areas and groups of 
65,000 persons or more in 2006. This means that there will be 
detailed characteristics data for areas such as New York City, 
including each of the five boroughs, for Los Angeles, for 
Sacramento, St. Louis, as well as Warren County, OH, and 
Brockton, MA, in 2006 and every year thereafter.
    In 2008 we will start providing data for every county, town 
and community between the sizes of 20,000 and 65,000. This 
means there will be summary data for Gila County, AZ; Port 
Huron, MI; Bethel Park, PA; and Redmond, WA; and they will be 
updated every year thereafter.
    The data for neighborhoods, census tracts or block groups, 
and smaller towns will come 2 years before long form data could 
possibly be provided by a conventional census in 2010. This 
means there will be data for Ballast Point and Forest Hills in 
Tampa, as well as for neighboring small towns such as Pine 
Crest, FL.
    The development of the American Community Survey, along 
with modernization of the Census Bureau's geography systems, 
has enabled the Census Bureau to plan a short-form-only census, 
and we are now well along the path to ensure their success.
    Moreover, the dramatic advantages of having both the 
American Community Survey and a fundamentally redesigned short-
form census in 2010 will cost the American taxpayers less than 
a traditional long-form decennial census. Our current estimates 
indicate that the three components of a reengineered 2010 
census will cost approximately $11.2 billion. However, if we 
change course right now and revert to a traditional long-form 
census, the overall cost will be at least $12 billion and 
perhaps much more.
    Our success will rely on your support of the President's 
2004 budget and on our ability to continue early planning and 
testing for the 2010 census. The American Community Survey is a 
high-return investment in America's future. It will mean yearly 
data from growing and changing communities throughout America.
    Mr. Chairman, even as we speak this morning, there are 
thousands of local, elected officials and planners struggling 
to balance diverse community needs. They are trying to 
establish priorities and invest in the future in an era of 
constrained budgets. For many, the American Community Survey 
will illuminate the difference between the past and the 
present, and this understanding is the key to being able to 
move confidently into the future.
    I ask that my complete statement be included in the record, 
and I thank you and would be happy to answer questions when the 
time comes. Thank you, sir.
    Mr. Putnam. Thank you, Director Kincannon, and your written 
testimony will be in the record in the appropriate place.
    [The prepared statement of Mr. Kincannon follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. And we will begin the questions with the 
gentleman from Missouri, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Kincannon, the Census Bureau produces the numbers that 
are used to draw congressional districts. Now, those numbers 
exclude children, but include noncitizens who cannot vote. This 
creates an inequity that is made even worse by an undercounted 
census, particularly in African-American districts. We wind up 
with districts that have an official census count that is quite 
different from reality.
    What can the Census Bureau do about this?
    Mr. Kincannon. Well, I believe in the particulars for the 
redistricting data files that we follow the prescription of the 
law and include people as directed there as we do for the 
Voting Rights Act. And I do believe that it is intended that 
all people, whether citizens or not, be represented by the 
Member of that district.
    Mr. Clay. Well, but now, what about--so we're counting all 
adults in the numbers, but not children, and with that 
compounded by the undercount, do you see the disparity here in 
the funneling of the numbers, so to say?
    Mr. Kincannon. Yes, Mr. Clay. My understanding, my 
recollection--let me look for a glance of agreement--is that we 
include children in the public law data that provide the basis 
for redistricting. That is correct. So we include children in 
the data file required by law for redistricting the Congress, 
and we include noncitizens.
    Mr. Clay. Now, I'm not quite sure if that is accurate, and 
I will--I'll follow-up with a letter to you so that we can 
clarify, and hopefully you can clarify for me, if children are 
included in the hard count for reapportionment purposes. That 
is what I need to know.
    Are they included in the voting rights data?
    Mr. Kincannon. No, sir, they are not, because the law 
specifies what should be--which parts of the population should 
be included; and only people of voting age, whether they are 
citizens or not, noncitizens, are included, as prescribed by 
the law, in the tabulations to support the Voting Rights Act 
implementation.
    Mr. Clay. OK. That sounds like a quirk in the law, doesn't 
it?
    Mr. Kincannon. Well, that would be best for you to judge, 
sir.
    Mr. Clay. But let's count you anyway, although services are 
rendered to a lot of children, too, you know, so that sounds 
like a quirk in the law.
    Let me go to the next question, Mr. Kincannon. It is my 
understanding that you announced to the National Academy of 
Sciences that for the 2010 census, the Census Bureau would not 
make any effort to correct the population for either 
reapportionment or redistricting. I have a letter I am sending 
today asking for more information on that decision. However, 
I'd like you to briefly address it here.
    Even the most optimistic counting of errors in the 2000 
census still shows a significant undercount for African 
Americans, almost 2 percent, and a differential between African 
Americans and Caucasians that is almost as large as 1990, a 
reduction of only about 24 percent.
    How can you say you're going to do nothing to be in a 
position to fix the census when these kinds of inequities 
remain and are likely to get worse? What do we do to correct 
that?
    Mr. Kincannon. Well, Mr. Clay, I think we do see a number 
of steps that we can take and are proposing to take to improve 
the completeness of the count in 2010. The American Community 
Survey, which will permit us to conduct a short-form-only 
census, is one step in that direction.
    The mail return rates are 13 percentage points higher for 
the short form than for the long form. That step alone and the 
simplification of the followup logistics will very clearly lead 
to improved coverage overall and, I believe, to improved 
differential coverage rates, that is, narrower differentials 
between population groups.
    The ACS will also permit us to target language minorities 
and other kinds of problems in rapidly developing or changing 
areas to address the kind of census taking we will need in 2010 
with recent and complete information.
    What I said in many forums and almost to everyone that will 
listen is that we are not asking funding that would support 
adjustment of the census, because we do not at present have a 
methodology that will provide results to meet the 
Constitutional and statutory needs of the census. I'm 
disappointed at that, but it's a fact that's the finding of the 
Census Bureau.
    We do plan to conduct an extensive evaluation of coverage 
in 2010. It's important that we have knowledge about the 
coverage. I won't be able to prove that we have made steps 
forward in 2010 without that.
    Mr. Clay. Why in 2003 have you said, so far out, that you 
would not make any effort to correct the population for either 
reapportionment or redistricting? I mean, look, I respect your 
expertise in this area, but tell me why the timing--timing-
wise----
    Mr. Kincannon. Mr. Clay, we've just completed a very 
thorough review of the effort of the 2000 census to measure 
coverage and to take steps to correct for errors in coverage, 
and that process has led us to the conclusion that we do not 
have a methodology that will support the kinds of applications 
that there are in the census. And I will mention three: First 
of all, reapportionment, use of sample-base data for 
reapportionment is prohibited under the law. So we will not 
propose any effort there.
    For redistricting, we are convinced--it's not me. I listen 
to experts who went through the process by which they made the 
decision that they were unable to produce useful figures that 
would withstand criticism and examination in time for the 
redistricting proposals which were re--redistricting file which 
must be provided by April 1st in the year following the census. 
And it's a good thing we didn't, because at that time, the 
indication was an undercount of 3 million. When we finished 
work on this examination in December 2002, the indication was 
an overcount of a million and a half. That's a significant 
difference.
    It still means that there are differentials, and that would 
be of concern, but it shows we were correct in deciding--the 
experts; I wasn't working at the Census Bureau at that time, 
but the experts on the staff were correct in their decision 
that we did not have usable figures in the mandated period 
required by the law.
    The last thing we examined was the potential for correcting 
for--of intercennial estimates which provide estimates at the 
place level throughout the country every year between censuses. 
And the examination--again of experts, not of me, because 
that's--I don't--I appreciate your note of respect for my 
expertise, but it doesn't extend that far. But the people who 
are experts and who have worked on this almost continually for 
the last decade drew the conclusion that we did not have a 
process that would produce usable, defensible figures even at 
the place level.
    We have worked in this direction for 25 years, and the 
process does--the procedure that we have worked with does not 
provide us with useful answers.
    Mr. Clay. There is no process?
    Mr. Kincannon. I didn't say that. There may be, but we 
don't have one in hand.
    Mr. Clay. Ms. Cooper, did you want to add something?
    Ms. Cooper. Yes. I simply wanted to add, as he describes, 
he has more expertise in this than I, but I have been here for 
2 years watching the professionals at the Census Bureau trying 
to work through this issue; and I simply want to express even 
more to you, Mr. Clay, that is a very important reason why this 
administration and Secretary Evans, in particular, and I myself 
feel so strongly about full funding for the ACS. Because we 
really do want to measure the characteristics of the population 
as we move through this decade, and have all the ability in the 
world to do the most accurate count that is possible in 2010. 
We really believe that this is indeed the most probable way of 
doing a better job, of reducing that undercount again, as we 
move to 2010.
    Mr. Clay. I hate to put you on the spot, Ms. Cooper, but if 
you were fully funded, would you assure us that the methodology 
would be developed to come up with more accurate counts to do 
this thing fairly and--in a reapportionment and redistricting?
    Can I get a guarantee from either one of you?
    Ms. Cooper. I think guarantees are never easy to fulfill. I 
will guarantee you that we will do everything in our power, 
with full funding of the ACS, to do the best job possible at a 
full count, absolutely full count in 2010. Clearly, that is 
very difficult.
    Mr. Clay. Promise?
    Ms. Cooper. But what we have done is get better each 
decade, and we want to continue that trend.
    Mr. Clay. Thank you.
    Ms. Cooper. We promise that.
    Mr. Putnam. We appreciate the gentleman's questions, and 
recognizing that we have a limited audience here, we're going 
to be generous with the time to have all your questions fully 
answered.
    I want to followup with Mr. Clay's questions about the 
accuracy of the census. Could either of you give us some sense 
of the historical trend of accuracy? Are we getting better? How 
much better? Are we getting worse? How much worse? Any 
developments?
    And since the purpose of this hearing is to talk about the 
American Community Survey, where does it get us in the next 
step toward a more accurate count?
    Mr. Kincannon. Mr. Chairman, I'm responding from memory, so 
I'll be rather general, but looking--again, we began 
systematically evaluating coverage of the census in 1940, and 
since that time, in general, there has been a trend toward 
better coverage, with the exception of the 1990 census where 
overall coverage and differential coverage between Blacks and 
nonBlacks widened. But we narrowed that and improved over the 
1980 census in 2000.
    So we have made gradual progress. I think this is due to, 
among other things, to the strong support in Congress for 
adequate funding to pay for workers in the field, for paid 
advertising and for the partnership program with local 
community leaders who can accomplish a relationship of trust to 
get over that barrier of concern about privacy. They can 
communicate better with the public than someone from Washington 
can.
    Mr. Putnam. What portion of your budget is spent on the 
long form versus the short form?
    Mr. Kincannon. I can't really answer that question for 
2000. We didn't get the records that way. I have some 
comparisons about conducting the census, either with a 
traditional long form or with the ACS in the redesigned census, 
if that is useful.
    If we conduct the redesigned census with the ACS collecting 
the long-form data and a short form only in 2010, we estimate 
that total cost over the life cycle would be about $11.2 
billion.
    If we now change and go to a traditional long-form census, 
the cost would be closer to $12 billion and perhaps more than 
that. And of course the benefits we get are less because we 
would not have reason to expect better coverage, improved 
coverage, in the census in 2010 because we'd still have the 
complexity of long-form work at the same time, and we would not 
have 10 observations measuring the rapid change in localities 
in our country.
    Mr. Putnam. Ms. Cooper, you used as an example the events 
of September 11th and how they have transformed Manhattan 
Island; and it occurred to me that the events of the last 2 
weeks in parts of Missouri and other communities in the 
Midwest, where the entire community is destroyed, the data will 
not be updated to reflect that tectonic shift in middle America 
until 2011 or so, whenever the final numbers come out. What's 
the process for dealing with these community leaders who are 
struggling to clean up and deal with the aftermath and rebuild 
or make the types of long-term decisions they are being asked 
to make? How do they do that with this outdated data?
    Ms. Cooper. Well, Chairman Putnam, that is a very good 
question and one that we struggle with, and I know the 
community leaders struggle with on a day-in-and-day-out basis, 
because there's simply not the ongoing set of information for 
them to use to make decisions about their future.
    And so, again, I think that is one of the driving forces 
behind why we are pushing the ACS as much as we are.
    Now, Director Kincannon may well have some better examples 
of how we deal with that, but I certainly do think that it's a 
very real issue and one that we have to be concerned about, 
going forward. This world is just changing too quickly, and 
tough events occur; and we need to be able to figure out how to 
deal with them.
    Mr. Putnam. Presumably FEMA enumerates the number of small 
business loans, the number of buildings that are rendered 
unsafe, the number of people who are homeless or in need of 
assistance. Is there some collaborative effort to coordinate 
their data and update your data?
    Mr. Kincannon. Well, if I might, FEMA would have what we 
might call enumerated data, instances of transactions, loans, 
destroyed businesses and so forth, but the denominator for all 
their calculations are data from the Census Bureau. We work 
very closely with FEMA to provide data that help in finding for 
evacuations, for dealing with disasters and so on.
    Just last month I was in Hawaii, meeting with native 
Hawaiian groups, because we have a new set of data in the 
census. The Commerce Department's tsunami warning center in 
Hawaii was conducting its first-ever statewide drill of tsunami 
warning, and I was privileged to observe the action. Thank 
goodness, it was only a drill, so it was a lot of telephone 
calls going back and forth, but the basis for the evacuation 
plans, census data, plus information about transportation.
    Now, that data is very fresh now in Hawaii, because it 
comes from the 2000 census. But as we go on, it will not be as 
fresh, and the ACS, like the long form, will provide daytime 
and nighttime populations for neighborhoods, and it will be 
updated annually. So disaster planning, whether for tsunamis or 
tornados or other events, will be better.
    Mr. Putnam. You let me and Mr. Clay know if the Hawaiians 
need any more tsunami drill observers.
    Mr. Kincannon. I only go because Senator Akaka wants me to.
    Mr. Putnam. Last week, in advisory committee meetings that 
were hosted by the Bureau, a number of different groups 
expressed some concern that recent laws, particularly the 
Patriot Act, are threatening the confidentiality provisions of 
Title 13. Could both of you speak to those concerns about the 
department and the Bureau's commitment to Title 13's privacy 
protections?
    Mr. Kincannon. Well, I think the simple answer is, the 
Patriot Act has no effect at all on Title 13, and I can tell 
you that as long as I'm the Director of the Census Bureau any 
change in law that would affect that will not be quietly 
engineered.
    Ms. Cooper. And I can tell you that the Department of 
Commerce stands firmly behind the Census Bureau in that.
    Mr. Putnam. Very good.
    As you're aware, this whole issue of privacy and 
confidentiality continue to be overriding concerns to many 
Americans. It's becoming more difficult for government, and the 
private sector, for that matter, to collect information from 
which information and decisions are derived.
    Share your thoughts on how the Census Bureau has become 
more creative in the past in toning down people's concerns or 
helping them to feel more comfortable with this and how future 
censuses or future community surveys will continue that trend 
of dealing with the privacy and confidentiality concerns.
    Mr. Kincannon. Well, I guess the first step that we try to 
take is to explain very clearly that the law prohibits any kind 
of sharing of this information for purposes other than 
statistical or, in fact, are in general outside the Census 
Bureau. That's a very clear provision of law, and the people 
who are punished if the violation occurs are Census Bureau 
employees. They can be fined very severely, a quarter of a 
million dollars, and they can go to jail for up to 5 years, I 
believe it is.
    I'm under oath, so I'll qualify by saying I think that's my 
recollection of the penalty. That's a severe penalty. It's not 
just a legal prohibition without some force behind it. It's 
really very substantial.
    Furthermore, we explain--and this is what the census field 
representative can explain very clearly on the doorstep or on 
the telephone when that contact with the concerned individual 
occurs--that we understand our business depends on our keeping 
the privacy of individuals who report to us protected.
    Ms. Cooper. And I might just add that is again a good 
reason why the ACS will help us to do that, because with the 
ACS, we will have--we will have people who are full-time 
staffers, who understand what is going on, who have been part 
of the Census Bureau, who understand and are able to help, more 
than is the case when we go once a decade and have to hire a 
lot of people and train them--and train them very well, but 
nevertheless it's very difficult to train people in a very 
short period of time.
    So having this done on an ongoing basis with permanent 
staff is--does do a much better job of alleviating some of 
those concerns of yours and other Congressmen's constituents.
    Mr. Putnam. With the exception of the ongoing testing and 
response rates to the ACS of the voluntary survey, your 
operational testing has been rather extensive and successful in 
giving you the basis for your cost estimates for the ACS, but 
recent evidence, such as the response rate to the current 
population survey, has been declining steadily, from almost 96 
percent in 1992 to your forecast of about 91 percent in 2005.
    This information on response rates raises two questions 
about the costs of the ACS.
    First, because the likelihood of a declining response rate 
to the male survey portion of the ACS will increase the more 
costly, personal interview followup, isn't it likely that 
you'll need more than the $150 million a year to collect 
reliable data?
    Mr. Kincannon. Well, Mr. Chairman, the difficulty in 
getting responses from households, whether a personal visit or 
by mail survey, is of concern to us. It is a phenomenon 
associated with changes in our whole society, with people--more 
people working and not at home during the day, with busier 
lives, with gated communities, concerns about privacy and so 
on; and very importantly, increased competition from private 
surveys or marketing activities that sometimes irritate people 
more than government surveys. It makes it harder sometimes for 
us to get that.
    So far, the response rates for the ACS, looking at the 
800,000-household sample, are remaining above 95 percent. If 
the society continues to change in ways that it has in the 
past, we may need more money than we expect now, but we expect 
that to be kept under control and to use every device and every 
technique at our hands to try to keep that response rate up.
    Mr. Putnam. Your intent is that it remain voluntary?
    Mr. Kincannon. Sir? I didn't hear.
    Mr. Putnam. If you eliminate the long form and replace it 
with the ACS, would that be voluntary or mandatory to respond?
    Mr. Kincannon. The ACS is a part of census, and under the 
census law, it is mandatory; and we have been conducting it on 
a mandatory basis. Recently, we have been conducting a very 
important test comparing mandatory and voluntary conditions of 
collection, and we will be reporting to the Congress on the 
results of that test in August.
    At that time, the Congress will make a decision about which 
way it thinks it's better to go with the survey.
    Mr. Putnam. Very well.
    Mr. Clay, do you have another round of questions?
    Mr. Clay. Yeah.
    Mr. Putnam. You're recognized.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Kincannon, in the plans for the American Community 
Survey, the Census Bureau indicates that the ACS will be used 
to update the master address file.
    Can you explain to us just how that will work?
    Mr. Kincannon. Well, in the course of conducting the 
American Community Survey, the field representatives will have 
observations about changes in areas that they're visiting.
    Also, we will be systematically making updates for areas of 
rapid change, new areas of development, as in the suburbs of 
some cities or other areas where there's rapid change.
    So there will be an effort both through the post office and 
with census staff to try to make sure that the master address 
file is up to date.
    Mr. Clay. Just before the 2000 census, the Census Bureau 
came to Congress and requested an additional $100 million to 
update the master address file for the 2000 census. That money 
was used to send thousands of workers walking up and down the 
streets of our city checking and listing addresses. This was 
necessary because all of the work on the address list leading 
up to the 1998 dress rehearsal didn't produce a list that was 
accurate enough.
    What assurance do we have that we will not be faced with 
the same problem in 2008?
    Mr. Kincannon. Well, certainly conducting the American 
Community Survey will make us much more aware of areas where we 
need to update where there's been more change going on. We will 
still, before the census in 2010, want to conduct a local 
update of census addresses so that we make sure that we take 
advantage of what local government knows about people in their 
areas, as well as using techniques with the Postal Service to 
make sure that we update that.
    Mr. Clay. It's important for this subcommittee to 
understand just how this process is going to work and to track 
the process so that we know well ahead of time if the project 
is getting off track.
    Will you provide the subcommittee with a detailed 
operational plan for using the ACS to update the address list?
    Mr. Kincannon. Yes. Mr. Clay, we'll be very happy to 
provide the subcommittee with that information.
    Mr. Clay. And now, in addition, will you provide the 
subcommittee with specific milestones for that project and the 
appropriate performance measures?
    Mr. Kincannon. We certainly will.
    Mr. Clay. Appreciate that.
    When the 2000 census came in at 281 million people, that 
was about 6.8 million higher than the Census Bureau's 
population estimates. The Census Bureau has said that the ACS 
will be better simply because it will be more timely than the 
census long form. However, as we saw with these population 
estimates, they might have been timely, but they weren't very 
accurate.
    It is my understanding that these estimates will be used to 
control the population counts from the ACS. In other words, the 
ACS will come up with a total population that will be 
statistically adjusted to agree with those independent 
estimates.
    What are the chances that in 2010 we will again find that 
these estimates and the ACS are way off on what the census 
shows the population to be?
    Mr. Kincannon. Well, I think we're taking steps to try to 
make sure that doesn't occur in 2010. Of course, the main 
problem in the estimates during the decade of the 1990's was 
that we clearly underestimated the amount of immigration that 
was occurring that was informal or undocumented. That was the 
main cause of the miss in the estimates compared with the 
census.
    The ACS does not count--make an estimate of the count of 
the people. We will still carry forward the estimates program 
which takes the 2000 census results and adjusts it for birth, 
death and what we can measure about immigration. The difference 
in this decade is that the American Community Survey, if it is 
conducted, will provide information like the long form on 
persons of foreign birth. And since we will have that at local 
areas, we can see where there are changes occurring. And we 
expect to use that information to improve our estimates of 
immigration at the local area.
    Mr. Clay. Thank you, Mr. Kincannon.
    Mr. Chairman, I have no further questions.
    Mr. Putnam. Thank you, Mr. Clay.
    Just a couple of wrap-up questions for the first panel.
    Ms. Cooper, is it the Department's position that you have 
all the authority you need to proceed with the elimination of 
the long form and the implementation of the ACS?
    Ms. Cooper. Chairman Putnam, it is. It is definitely our 
belief that we do have that authority, because it is part of 
decennial census that is authorized by Title 13, and the GAO 
supports us in that belief.
    Mr. Putnam. Is the movement away from the decennial census 
to an annual ACS keeping with Title 13?
    Ms. Cooper. It is. But the census--the decennial census is 
the count. Through the decade we will be measuring the 
characteristics, but they go all together and that is a part of 
Title 13.
    Mr. Putnam. So you do not believe that additional 
congressional action is required to move forward?
    Ms. Cooper. We do not believe it is necessary.
    Mr. Putnam. Do you believe that it would be helpful to have 
additional congressional guidance on that?
    Ms. Cooper. I would say that from our point of view, 
because we are looking at it from the legal point of view, we 
do not think it would be necessarily helpful to us. But 
certainly you may be looking at it from a different point of 
view.
    The Congress has to make that decision on its own, if it 
finds it would be helpful to you.
    Mr. Putnam. Very good.
    Director Kincannon, if Congress fully implements the ACS in 
the fourth quarter of 2004, what can we expect to pay of the 
ACS, yearly, from that point until 2010?
    Mr. Kincannon. Well, Mr. Chairman, you know that I can't 
talk about future budget proposals that have not been reviewed 
in the administration and agreed to. The only guidance I could 
offer would be to go back to the administration's proposal for 
2003, which would have collected ACS data for 9 months, covered 
by the balance from January through September. The estimate of 
cost there was about $124 million.
    If you move that from 9 months' to 12 months' coverage, 
that would increase that by one-third, or about $165 million a 
year; and you can extrapolate out, multiplying by the number of 
years. And of course this extrapolation doesn't include any 
factor for inflation or more difficult enumeration of 
households or that sort of thing, but that would be the best 
offer, the best estimate one could make at this time.
    Mr. Putnam. Well, that question was based on the fact that 
the President's budget request only fully implements ACS in the 
fourth quarter of 2004, which some of us had expected to be a 
bit earlier and wanted to make sure that the administration's 
commitment was still there.
    Mr. Kincannon. Well, the administration's commitment 
explicitly was to scale it up beginning in the fourth quarter 
of 2004; and that implies a commitment to be--it would be quite 
wasteful if there were not the administration commitment to 
follow through in 2005. And I assume that commitment is implied 
strongly, if not even explicitly, in the proposal for 2004.
    Ms. Cooper. And I would add to that the commitment is 
there. That's why it is included in the fourth quarter of 2004.
    Secretary Evans has testified, and he has said and talked 
so many times about the importance of implementing the ACS not 
only for doing a better job with the 2010 census, but for 
having the kind of data structure and infrastructure structure 
we need for this economy, for the largest and strongest economy 
in the world.
    And so we do have a strong commitment; the administration 
has a strong commitment. And we certainly hope that it does get 
fully funded, and we'd appreciate your support.
    Mr. Putnam. Under Secretary Cooper, Director Kincannon, we 
appreciate your testimony and the commitment that you have to 
improving the accuracy and reliability and innovation of the 
census. So, we will excuse the first panel now and take a 2-
minute recess while we set up the table for the second panel.
    [Recess.]
    Mr. Putnam. We will reconvene the second panel. We will 
begin with the swearing in and the oath. Please rise and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record all the witnesses responded 
in the affirmative.
    I want to welcome all of you to the subcommittee. We 
appreciate the time and energy that you have set aside in 
preparation for this, and your insight, as the subcommittee and 
the Congress as a whole ramps up and prepares for the necessary 
changes to improve the accuracy and reliability of the 2010 
census.
    We will begin our testimony with Mr. Reardon.
    Thomas Reardon is originally from the Philadelphia area. He 
attended Shippensburg University, where he graduated with a 
bachelor's degree in public relations.
    He has had a varied career including positions such as 
district executive with Hiawatha Council of Boy Scouts of 
America, the lead teacher in an alternative school, supervisor 
in a juvenile corrections facility, and is currently the 
executive director of the Fulton County Partnership, Inc., 
where he has served for 2 years. His wide range of experience 
has helped him succeed in bringing rapid growth to the Fulton 
County Partnership.
    We look forward to your testimony, and you are recognized 
for 5 minutes.

STATEMENTS OF THOMAS REARDON, EXECUTIVE DIRECTOR, FULTON COUNTY 
 PARTNERSHIP, McCONNELLSBURG, PA; DR. JOSEPH SALVO, DIRECTOR, 
POPULATION DIVISION, NEW YORK CITY DEPARTMENT OF CITY PLANNING; 
 JOAN NAYMARK, DIRECTOR, RESEARCH AND PLANNING, TARGET CORP., 
   TESTIFYING ON BEHALF OF THE U.S. CHAMBER OF COMMERCE; KEN 
 HODGES, DIRECTOR OF DEMOGRAPHY, CLARITAS; AND RICHARD OGBURN, 
   PRINCIPAL PLANNER, SOUTH FLORIDA REGIONAL PLANNING COUNCIL

    Mr. Reardon. Thank you, Mr. Putnam. Good morning.
    I've been asked to speak to you today about how we use the 
American Community Survey data in Fulton County. If I could 
direct your attention to the screens on the side, a small Power 
Point presentation for you. And I would like to welcome you to 
Fulton County.
    What I'm going to do today is, I'm going to tell you a 
story, not just any story, but a human story about the people 
in Fulton County. And in order to do that, I think I need to 
give you a little bit of background about Fulton County.
    So here is--I don't think you can see this on this map, but 
at the very bottom, in the center--unfortunately, it's cutoff--
is Fulton County. It is cutoff. Go ahead to the next slide, 
please.
    Fulton County is a small, 100 percent rural county. And 
perhaps the population of the county gives you a clue of that. 
According to the 2000 census data, it's 14,261 people. So it is 
very small, and it is a class 8, in Pennsylvania, county. 
That's on a scale of 1 to 8, 1 being something like 
Philadelphia, 8 being Fulton County and a few others.
    We are geographically isolated, and I think that's a key 
there, as we have mountains to the west, the north, and the 
east, and we are bordered by Maryland on the south.
    If you go to the next slide, I will break that out even 
more in terms of our population. According to the ACS data, you 
can see the median age is about 36\1/2\ years. You can review 
that yourself. Let me go to the next slide.
    As I said, we are geographically isolated. And I think 
that's a key, that we don't get a lot of contact with the other 
areas in Pennsylvania because of these mountains. They are not 
snowcapped mountains, by any means, but they're enough that if 
you are a low-income person and you may not have a vehicle, you 
can't get out of the county very well.
    Next, we are also an agrarian community; it has typically 
always been farms, family farms. But unfortunately, with the 
failure of so many family farms, we are moving toward a more 
manufacturing and industrialized community.
    So now that you know a little bit about Fulton County, just 
a little background there, let me go ahead and tell you what we 
are doing with the ACS data now as we go into the next slide.
    We have a flu vaccination clinic that we use. And this is 
one of my favorite examples. We used the American Community 
Survey to determine the number of vaccines to purchase. We knew 
from previous flu vaccination clinics that about 31 percent of 
our seniors would participate. We added a few more for other 
high-risk people. And using ACS data, we determined that we 
needed to purchase 650 vaccinations. Had we used the 1990 
census data, which was only 6 years old at the time, we would 
have been off by 5 percent already.
    So we also had to use the data to divide the doses among 
the senior centers. In a small community, it's very important 
that we not slight anyone. If we don't send enough to the south 
end of the town, they will be upset at us. And surprisingly--
you'd be amazed how much time was spent in a committee trying 
to determine, how are we going to figure out how much of this 
vaccination goes to each of these senior centers.
    The ACS data, we used it, we used the percentages that it 
gave us; we were within five doses at each senior center. It 
was amazing.
    Next slide. We have a dental clinic. We have used the 
American Community Survey data to justify the need, based on 
the low-income population. We used that data to receive a grant 
for $200,000 for that dental clinic, to expand that clinic; and 
as a result, we have served more than 450 low-income patients 
in our dental clinic.
    Go to the next slide. We have an employment transportation 
assistance program. Now, in Fulton County we have one major 
employer, and that's JLG. They produce industrial lifts like 
the one you see in the top right corner of this slide. You 
probably recognize them; they are orange and yellow, you have 
probably seen them before. They are the only employer in the 
county, for all intents and purposes.
    When the economy is doing great and people are building, 
there's a huge need for these lifts. But when the economy is 
not doing great and people are not building, there is no need. 
And so, within a year, Fulton County at one point went from 
having the highest rate of employment in the State to the 
lowest rate of employment in the State. The census data didn't 
show us that. You know, living in Fulton County we know that 
this is the case, but we can't express that to funders or 
people who are willing to fund that.
    Using the 1990 census data, we applied for a grant for this 
Welfare to Work transportation program, got $6,000. Using the 
ACS data from 1996, we were able to justify $60,000. So there 
was a tenfold increase in what we were able to justify.
    Next slide, please. And how do we plan to use the data in 
the future? Quite simply, up-to-date statistical information 
equals more accurate use of our money and our efforts. We are a 
small county, we're a small organization with limited 
resources. We need to focus our attentions, we need to be very 
cost efficient and cost effective--obviously, better planning 
for more accurate identification of trends.
    If we can see something happening in a small part of our 
community, we can reach out there and prevent that from 
becoming a major problem. And by preventing those problems, we 
are saving tax dollars by--you know, an ounce of prevention is 
worth a pound of cure.
    So, thank you very much.
    Mr. Putnam. Thank you very much. Who is the Congressman 
from Fulton County?
    Mr. Reardon. Bill Shuster.
    Mr. Putnam. Very good.
    [The prepared statement of Mr. Reardon follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. Our next witness is Dr. Joseph J. Salvo, the 
director of the Population Division, Department of City 
Planning, city of New York. He has worked there for 20 years.
    The Population Division is one of the largest public sector 
users of census data in the Nation, and has a long history of 
involvement with all aspects of the decennial census. The 
Population Division coordinated New York City's address list 
review effort for the 2000 census, and provided technical 
support for local and Federal outreach operations.
    Dr. Salvo's recent work includes research on the 
residential settlement of immigrants, 2000 census methods, and 
the American Community Survey. He serves on the National 
Academy of Sciences, the National Research Council panel on 
Future Census Methods, and is a former President of the 
Association of Public Data Users.
    He was an editor and author of the Encyclopedia of the U.S. 
Census, and is the author of many articles on the demography of 
immigrants in New York.
    Dr. Salvo received M.A. and Ph.D. Degrees in sociology from 
Fordham. In 1995, he was a recipient of the Sloan Public 
Service Award from the fund for the city of New York.
    You have a lot of the same problems Mr. Reardon has, don't 
you? Welcome. You are recognized.
    Mr. Salvo. Thank you, Mr. Putnam. Thank you for inviting me 
today. I appreciate it very, very much.
    In the interest of full disclosure, I want to begin by 
saying that some of the research that you are going to be 
hearing about in a few moments was supported by a grant from 
the Census Bureau to the Department of City Planning Fund, a 
501(c)(3) that was established several decades ago to enhance 
research activities at the Department of City Planning in the 
city of New York.
    Two decades ago, local entities, including New York, 
challenged the Census Bureau to provide portraits of 
neighborhoods more than once a decade. However, it wasn't until 
1991, when consternation over the lackluster results of the 
1990 census caused several in Congress to press the Census 
Bureau to find a better way, that the idea of the ACS was 
pursued in earnest.
    With the support of the Congress, the Census Bureau has now 
pilot-tested the ACS for more than 8 years and brought the 
survey to a point where national implementation is ready to 
occur.
    So what is it about the ACS that should make it a priority 
in this era of budget austerity? There are two main reasons 
that I want to talk about today.
    First, as a source of useful social and economic small area 
data, the ACS does a better job than the decennial census, 
which likely reached the limits of its capability in 2000. And, 
second, cost-effective government requires current information, 
which the ACS provides.
    Regarding the former, we have evaluated the quality of 
socioeconomic data from the ACS against similar data from the 
2000 decennial census in Bronx County, one of the five boroughs 
of the city of New York and one of the ACS test sites. What we 
found was that the 2000 census did a great job counting Bronx 
residents, many of whom were in historically undercounted 
groups in neighborhoods that were among the poorest in the 
Nation. Measuring social and economic characteristics, however, 
was quite another matter.
    The census long form fell on hard times in the Bronx in 
2000. It appears that many forms were returned with missing 
information or, even worse, literally no answers to the long-
form questions, such as those on education, income, language, 
and birthplace. More than one of every five census long forms 
in the Bronx had to be dropped from the pool of questionnaires 
used to create estimates because they failed to achieve a 
threshold designating them as minimally complete. The fact that 
a majority of these questionnaires had little or no information 
on them usually means that the census enumerators failed to 
make direct contact with members of the household.
    In contrast, we have found that the ACS is a better vehicle 
than the census for collecting data on the characteristics of 
the population, because the survey's methodology uses better-
trained professional interviewers who know how to collect data 
from sometimes reluctant respondents. Our research shows that 
followup enumerators in the 2000 ACS were far more successful 
in obtaining critical information on occupation, birthplace, 
and income than in the 2000 census.
    Concerning the second point, the timeliness of data, we are 
the data hub for city agencies in the city of New York and for 
organizations that do business in the city. My staff and I have 
a first-hand, on-the-ground view of the importance of data for 
planning activities and for the delivery of services. And, as 
was mentioned earlier, planning the future of Lower Manhattan 
is a case in point.
    Accurate knowledge of the characteristics of people who 
live in Lower Manhattan neighborhoods helps planners make 
decisions on development that is suitable for future residents, 
for example, the type of housing and the need for new schools 
and other facilities. Data on occupations, industry, commuting 
patterns is essential in evaluating the need for transportation 
infrastructure. Namely, which way a tunnel, a bridge, should go 
is literally dependent on the level of commuting into and out 
of areas.
    The 2000 census data are now obsolete for this purpose, 
given the population movements and changes in the area 
associated with the aftermath of September 11th. Without an 
alternative to the traditional census long form, we will have 
to wait until 2012 for a post-September 11 view of the city 
because there is no way at present to gauge change over shorter 
periods of time.
    With such a huge investment in infrastructure associated 
with rebuilding Lower Manhattan, it is reasonable and cost 
effective to expect that decisions be based on current 
information about residents and commuter flows. Yet, this is 
not the case. More generally, the planning and delivery of 
services in New York City occur largely within the context of 
59 geographic units, known as community districts. Created in 
the late 1960's, these districts are aggregates of 
neighborhoods represented by community boards with members 
whose job it is to make officials within city government aware 
of the changing needs of the communities they serve, from day 
care for working mothers to transportation for the elderly.
    We use long-form data to target districts for English 
language proficiency programs, and we identify areas with large 
numbers of working families with children that have fallen into 
poverty and are in need of health insurance or other government 
intervention to buffer the effects of an economic downturn.
    But changes in immigration patterns and shifts in the 
economy do not follow the decennial cycle of data, rendering 
such data obsolete and compromising our capacity to establish 
priorities for spending. If the ACS is allowed to go forward, 
we will not have to wait 10 years for updated statistical 
portraits of these districts because data will be available 
every year.
    In summary, every day my office receives requests from 
local agencies and community service providers who look to us 
for data in support of programs to meet the needs of our 
population. Local nonprofit community organizations applying 
for funds to rehabilitate housing, transportation planners 
trying to figure out how best to run ferry service across the 
East River and the Hudson. They are all looking for information 
to make decisions. And while the issues and goals may differ, 
the process is the same for all good governments, both urban 
and rural.
    Having people come to you for this purpose is both an honor 
and a challenging responsibility. We constantly are asking 
ourselves, how do we get it right. That's the key to effective 
government, trying to get it right. But we can't get it right 
unless we have data. And ill-informed decisions result in 
wasteful spending, something that no government, large or 
small, can afford.
    It is important that the Congress support activities that 
are cost-effective for local government decisionmaking, so we 
can make the most of our resources. What we do not have in 
dollars, we must at least partly make up for with wise 
decisions.
    Therefore, we in New York would like to urge the Congress 
to continue its commitment to innovation by strongly supporting 
the national implementation of the ACS so that it can be 
incorporated as a replacement for the long form in 2010. Time 
is now of the essence, since the 2010 census planning hinges on 
the implementation of the ACS. We urge the Congress to act in a 
timely and decisive way.
    Thank you very much.
    Mr. Putnam. Thank you very much, Dr. Salvo.
    [The prepared statement of Mr. Salvo follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. The subcommittee did its best to find the best 
and the brightest in both the rural community and the urban 
community, and I feel confident we did that with you and Mr. 
Reardon. So we appreciate you being here.
    We'll move on to the private sector now, and hear from Joan 
Naymark, who is director of research and planning for the 
Target Corp. Her department is responsible for research, 
supporting the store expansion program for Target, Mervyn's, 
and Marshall Field's. Before joining Target Corp., she was 
manager of population studies for the Upper Midwest Council and 
a research assistant in the Minnesota Office of State 
Demographer.
    Ms. Naymark is a member of the Census Advisory Committee to 
the U.S. Secretary of Commerce, representing the U.S. Chamber 
of Congress and business stakeholders. She is a member of the 
Population Association of America, and a past chair of that 
organization's Business Demography Committee.
    She received her B.S. and M.A. degrees in sociology and 
demography, magna cum laude, from Western Washington University 
in Bellingham, WA, in 1975 and 1978. She has been a speaker at 
national seminars and symposiums on retail geographic 
information systems and demographic topics.
    She has worked with the Census Bureau regarding business's 
use of census products, value-added reengineering and outreach 
efforts, and the 1997 through 2002 economic censuses and the 
2000 decennial census.
    Welcome to the subcommittee.
    Ms. Naymark. Thank you, Mr. Chairman and Mr. Clay. I am 
really pleased to be with you today to speak on the behalf of 
the American Community Survey.
    I offer a strong endorsement of the American Community 
Survey, a widely and deeply shared view across the business 
community. The ACS is vital to economic development and for 
wise government and business decisionmaking. The ACS is an 
improvement over the census long form because it provides small 
area information annually instead of once a decade. I have 
three key points I'd like to share with you today.
    First, the business community needs timely and consistent 
long-form data for small geographic areas, as planned in the 
ACS. Two, the ACS is an important part of our country's 
economic infrastructure. And, three, the ACS deserves 
congressional support and funding now. We feel very strongly 
about all three points.
    So, first, the business community needs updated information 
on the characteristics of small areas, comparable across time 
and geography to make strategically and financially sound 
decisions. Let me share some examples of why these data are 
important to businesses on a daily basis from my own life at 
Target Corp.
    We use long-form census data to select locations for new 
stores, capital spending on remodeling and infrastructure, 
providing merchandise marketing and advertising to match the 
neighborhoods in which we operate our stores, planning our work 
force, and supporting our substantial community giving program.
    Target's new store site location decisions are made for the 
long term over 20 years. Our original stores built in the 
1960's, I'm happy to report, are still operating.
    Making a wrong decision is not easily corrected. Building 
for the long term brings jobs, goods and services and economic 
stability to local communities. We serve all kinds of 
communities, but must understand their characteristics in order 
to tailor products and services to meet the needs of those 
residents. The transition of older communities into better-
educated, younger family neighborhoods, or vice versa, is 
difficult to observe and impossible to measure without good-
quality, small-area data.
    Neighborhood data helps inform a wide range of 
merchandising decisions. Home decor merchandise sells better in 
some area than others, so we analyze the age and mix of housing 
stock, household formation and composition. Pharmacy services, 
toys, clothing all appeal to different customer groups. Area 
characteristics change, but how do we know when and where that 
change is occurring?
    Long-form data identifies multicultural merchandise and 
bilingual signing opportunities for stores with rapid Hispanic 
and Asian population growth nearby. No private data vendor can 
measure ethnic change at the neighborhood level; it just can't 
happen. Annual ACS data would eliminate simplistic trending 
following each census.
    Target combines geographic information systems and computer 
models to leverage the small-area data in ways not imaginable 5 
years ago across the country. The maps in my written testimony 
provide a spatial view of neighborhoods in metro Denver in the 
year 2000 and change in the 1990's. Without the ACS, these maps 
will remain in freeze-frame until the year 2013. Yet, measuring 
neighborhood change is highly important to our decisions. At 
what rate are new housing units being built? Do residents rent 
or own their homes? What is their economic and educational 
profile?
    Annual updates would allow forward-looking decisions, not 
mistakes, based on outdated information. Until as recently as 6 
months ago, Target's research still used 1990 long-form data. 
It was better than nothing, but not by much. In other words, 
timeliness is a critical element of accuracy in this new 
century. Data that accurately described conditions in the year 
2000 are historically interesting, but less relevant with each 
passing year.
    Point two, annual ACS data are an investment in the 
economic infrastructure of this country. Government and the 
private sector need to work from the same baseline of 
information--objective, reliable statistics--to make sure we 
are all moving in the same direction to make informed decisions 
in policy to support long-term economic growth. There is no 
viable alternative for the information collected in the census, 
and if Congress agrees, in the proposed American Community 
Survey.
    The Census Bureau alone is positioned to ensure we know as 
much about Bartow, FL, as we do about St. Louis, MO, as much 
about rural counties in Pennsylvania as New York City. Target 
Corp. studies all of them.
    We need consistent information across the board. A 
privately run organization couldn't replicate the conditions 
and infrastructure required to collect accurate, comparable 
data for neighborhoods of all sizes across the country. I 
encourage you to consider the economic value-added investment 
as you weigh the advantages and costs of replacing a 2010 long 
form with the American Community Survey.
    And my final point, just quickly, Congress needs to commit 
to the American Community Survey over the long term. With 
adequate sample size, field staff, and outreach efforts, 
partnerships would ensure the quality and accuracy of 
innovative efforts that we see the Census Bureau implementing 
now. It's at a time now where full implementation is wise and 
necessary to realize the promise of this information. We can't 
have fluctuating support, as I know you understand. We are 
firmly behind this process, but we can't get started and then 
not continue.
    We urge Congress to support the American Community Survey 
by committing the necessary funds now and in the long term to 
make the program a reality and a success for business, for our 
economic infrastructure, and for the good of our country. Thank 
you.
    Mr. Putnam. Thank you very much. We appreciate your 
comments, and look forward to the questions.
    [The prepared statement of Ms. Naymark follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. Now I recognize Ken Hodges of Claritas. He is 
director of demography at Claritas, a major supplier of 
consumer marketing information products. Mr. Hodges' 
responsibilities include methodology and evaluation for the 
Claritas demographic estimates and projections, and the 
incorporation of the U.S. census data in marketing information 
products.
    Prior to joining them in 1993, he spent 11 years as chief 
demographer at Donnelley Marketing Information Services. He has 
a Ph.D. in demography from Cornell, and remains active in the 
profession of applied demography. He resides in Ithaca, NY.
    Welcome to the subcommittee. You are recognized.
    Mr. Hodges. Thank you very much.
    I am a demographer with a company that provides information 
products to a wide range and large number of businesses. 
Businesses are prolific users of census data, usually in the 
form of value-added products tailored to applications including 
site selection and consumer segmentation. These applications 
require demographic data for very small areas, and the census 
is the best and often the only source of this type of 
information.
    The private sector has its own excellent data resources, 
but they cannot replace what we get from the census. Many 
private sector information products begin with the census, so 
the quality of these products and the decisions based on them 
depend on the quality of census data.
    Especially important are the data from the census long 
form, which provides detail on income, education, employment, 
language, and a number of items relevant to business decisions. 
And with a short-form-only census being planned for 2010, 
businesses have a major stake in the American Community Survey.
    Support and even enthusiasm for the ACS are growing in the 
private sector because the ACS is billed as a long form 
replacement with the bonus of more frequent updates. The 
frequent updates hold great promise and appeal, but long form 
replacement is the top priority. And for business users, long 
form replacement means data for small areas. And by ``small 
areas,'' businesses usually mean block groups, the level of 
geography provided by the long form, and we continue to be 
pleased that plans for the ACS continue to describe data at 
that level.
    Now, the ACS is an ambitious program, and some data users 
have expressed some legitimate concerns about it. But even 
these concerns help us make the case for the ACS.
    First, there is concern that controlling the ACS to Census 
Bureau estimates could introduce errors as there are known 
problems in some Census Bureau estimates. But problems with 
Census Bureau estimates should not dampen support for the ACS 
itself. Businesses already use information products controlled 
to these estimates as these estimates are widely used by the 
suppliers in building their value-added products.
    And there is reason to expect that the ACS would contribute 
to significant improvements in the Census Bureau's estimates 
program. For example, the ACS would require regular updates to 
the master address file, which should improve estimation 
capabilities. In fact, at Claritas, some of the most accurate 
estimates for small areas that we've produced in the last few 
years have been those based on ACS test data which are based 
largely on information from the master address file.
    It remains to be seen just exactly how the ACS and the 
Census Bureau's estimates program would be integrated, but the 
potential for improvement is with the ACS.
    Second, there has been concern that group quarters data 
have not been collected in the ACS and may have been a 
relatively low ACS priority. To qualify as a long form 
replacement, the ACS must collect information on the population 
in group quarters. But if, so far, group quarters seems to have 
been a stepchild of the ACS, it may have been a stepchild of 
the decennial census as well. Numerous errors in the census 
2000 group quarters data already impair our ability to account 
for populations in college dormitories, nursing homes, military 
quarters, and other facilities. And we will live with these 
errors for the rest of the decade.
    In contrast, an ACS that collects information on group 
quarters could provide more timely corrections to errors of 
this type and would ensure better group quarters data in future 
censuses. Again, the potential for improvement is with the ACS.
    Third, there has been concern that delays in the full 
implementation of the ACS have pushed back or delayed the 
release of the first small-area data until 2010. These delays 
are unfortunate, but for most business purposes, 2010 would be 
acceptable as we would not expect 2010 census data to replace 
the old census until 2011 and 2012. Further delays could be a 
problem, but current timing is consistent with the goal of long 
form replacement.
    Finally, there has been concern that the schedule gives us 
insufficient time to test ACS data which would be complicated 
by 5-year averages, different residence rules, and other 
technical issues. The ACS data would pose significant 
challenges, and in an ideal world, we might do additional 
testing. But census data have never lived in an ideal world. I 
do not honestly know yet exactly how we would address all the 
technical issues, but I know that we would. It's what we do in 
applied demography.
    Again, the potential for improvement is with the ACS. And 
if we get a sustained ACS that is a true long form replacement, 
we would incorporate the information into those products which 
we provide to so many businesses. And if we do this every year, 
the ACS would significantly improve the quality of these 
products and better enable businesses to serve American 
consumers.
    Thank you very much for the opportunity to testify. And I 
look forward to your questions.
    Mr. Putnam. Thank you very much. And we appreciate you 
being here.
    [The prepared statement of Mr. Hodges follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. Our final witness for this panel is Richard 
Ogburn, who has almost 30 years of international experience and 
development planning in State and regional policy analysis. He 
currently is principal planner for the South Florida Regional 
Planning Council, a planning and public policy agency for this 
urbanized but environmentally sensitive region of 3 counties 
and 68 municipalities and 4 million residents, over a third of 
whom are foreign born.
    Mr. Ogburn is responsible for the Council's State Data 
Center Affiliate program, and performs demographic and economic 
analysis of the region to support the strategic regional policy 
plan for south Florida, which guides implementation of 
Florida's landmark growth management legislation in the region. 
He also works with local governments and service providers in 
the region to improve the use and understanding of demographic 
and economic data about the region, including Census Bureau 
products.
    Prior to joining the South Florida Regional Planning 
Council in 1989, Mr. Ogburn spent 15 years working for public 
planning agencies for the primary sector in the state of Bahia, 
in the northeast of Brazil, where he first arrived as a Peace 
Corps volunteer. He is fluent in both Portuguese and Spanish.
    Mr. Ogburn earned his bachelor's degree in liberal arts 
from New College in Sarasota, FL, and has Master's degrees in 
Latin American studies from the University of Florida--Go 
Gators--and in economics from the University of California, 
Berkeley.
    Welcome to the subcommittee.
    Mr. Ogburn. Thank you, Mr. Putnam. And it's a pleasure to 
be here. It's an honor to be here today to address you with 
regard to the American Community Survey.
    I have been asked to share some of the experiences that we 
have had working with businesses, community organizations, 
planners, policy analysts, and decisionmakers in Broward 
County, one of the ACS sites, and the rest of the south Florida 
region as the Census Bureau has carried out the pilot phase for 
developing the approach to continuous measurement.
    The board of the South Florida Regional Planning Council 
believes that full implementation of the American Community 
Survey will bring about a sea change in how we plan at the 
local level. The ACS will support more effective allocation of 
scarce public resources in our communities by enabling us to 
better understand the need, more accurately target Federal, 
State, and local program resources, and better assess the 
impact of those resources.
    As local governments and community organizations across the 
Nation assume an increasing responsibility for enhancing the 
quality of life in their communities, more current and better-
quality information is an essential tool. Businesses in south 
Florida have little choice today but to either purchase or 
develop their own local market statistics to guide decisions, 
although such intercensual estimates are generally less 
reliable in fast-growing regions of the country like south 
Florida. Annual household characteristics of the population are 
available today only for large geographies, yet programs are 
targeted at local communities and neighborhoods. Data at that 
level of geography is available only once every 10 years.
    The American Community Survey builds on the decennial 
census, which we consider the ``gold standard'' for 
understanding the demographic and socioeconomic characteristics 
of our communities. Using a combination of tried and true 
methodologies, along with innovative new approaches, the ACS 
will ensure that the information we need is collected with a 
consistent approach across all jurisdictions. Without a 
recognized source for information with which to plan and 
evaluate programs and to understand our markets, we would be 
forced to divert scarce program resources from services for 
people and job creation to costly local surveys and other 
information gathering.
    By enabling us to strengthen our economies and our 
communities, the ACS will contribute to enhancing the quality 
of life as well as the security of the Nation as a whole.
    The South Florida Regional Planning Council represents 68 
municipalities and 3 counties, with a population of over 4 
million residents, a region that's larger than 24 States. We 
work with a broad array of Federal, State, and local public 
sector organizations. We also provide information services to 
the businesses and nonprofit organizations as well as the 
general public in our region.
    The technical assistance we provide includes planning for 
land use and natural resources, transportation, economic 
development, affordable housing, emergency preparedness, 
hazardous materials, and human service systems. We also provide 
geographic information services and support for collaborative 
processes and consensus building.
    As an affiliate of the Florida State Data Center, we 
receive and disseminate Census Bureau data. In virtually all of 
the programs and projects in which we participate, we use 
demographic and socioeconomic data to develop our analysis of 
regional trends and to profile areas of the region.
    In my written comments I've identified some specific types 
of work that we do that would benefit from full implementation 
of the ACS, and I will be happy to answer any questions on 
those at an appropriate time.
    In south Florida, 176 new residents settle each day. That 
means 50,000, 60,000, 70,000 new residents each year. All of 
these need jobs, housing, transportation, water, schools, 
hospitals, etc. Seven out of every 10 of these new residents 
are foreign-born. Today, the foreign-born represent 40 percent 
of the region's population, up from 25 percent in 1980. That's 
1.6 million people.
    Factors that are largely external to the region affect the 
pace and flow of immigrants from abroad, which makes it almost 
impossible to model the population. Shifts of the population 
within the region also play a key role in determining the pace 
and composition of growth in smaller areas in south Florida.
    In my written comments, I have provided some examples of 
the impact of the fast pace of growth, the shifts of population 
within the region, and the impact of natural disasters. Many of 
you will remember Hurricane Andrew that swept through southern 
Miami-Dade County in 1992. It devastated the city of Homestead. 
That city's population, which was almost 27,000 in 1990, is 
estimated to have fallen to under 19,000 by 1993, and then 
grown back to 32,000 in the year 2000. The only way that those 
estimates were able to be made was by going out and doing work 
on the ground separately from any existing statistical 
measurement procedure. It was necessary for the University of 
Florida and the county to go out together and work on making 
those estimates.
    I've also provided some examples of how we use the data and 
how we expect to be able to use the data in the future. Many of 
the uses today involve the development of needs assessments and 
strategic plans, affordable housing needs assessments for the 
comprehensive planning process in the State of Florida, 
tracking crime statistics in small areas in each county in 
order to target the use of resources, developing facilities 
expansion plans for our service delivery organizations, and 
fulfilling the requirements of the growth management 
legislation in the State of Florida through the comprehensive 
planning process in each and every local government.
    In summary, as local responsibilities grow, not having 
annual community level data to design programs, to monitor 
implementation, and to evaluate the results of those programs, 
as well as to support business decisions, is no longer an 
option. We use the data to provide technical assistance to our 
constituents, and they use the information to inform decisions 
that affect all of us.
    We believe that the American Community Survey offers the 
best option because it builds on the decennial census. It will 
make it possible to monitor and evaluate targeted program 
implementation, and it ensures trustworthy data for all, with 
the least expenditure of scarce resources.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Mr. Ogburn follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Putnam. And as has been the custom, our ranking member 
will lead off with the questions.
    Thank all of you for your testimony.
    Mr. Clay. Thank you, Mr. Chairman.
    And thank all of you here.
    Let's start with Ms. Naymark. At our last hearing, Don 
Hernandez, representing the Population Association of America, 
and Linda Gage from California raised the issue of the quality 
of the population instruments produced by the Census Bureau.
    Can you explain to this nontechnical audience, why is it 
that these estimates are important to the American Community 
Survey?
    Ms. Naymark. Thank you, Mr. Clay.
    Accuracy is highly important to the business community as 
we use the information. I am not a statistician. I listen to 
the dialog and conversation between the Census Bureau and the 
stakeholder community about sampling frames and lots of 
statistical terms which I couldn't possibly explain to you. I 
do know there is a strong dialog.
    There is a strong concern with quality. Lots of issues were 
raised even at the end of last week in the Decennial Advisory 
Committee meetings about small data accuracy and the technical 
issues, coverage, and all the different measurements of 
quality. We have to have consistent quality across the country. 
We need to understand what the issues are, understand there are 
some which are more measurable than others, but quality is a 
key concern as we move forward.
    It's something that perhaps is unanswerable at this point. 
I would have to refer to people who are more knowledgeable 
technically. But quality is one of our primary concerns and 
issues. But I'm very comfortable with the process that I've 
been observing, about how the Bureau is addressing issues of 
accuracy and how they expect to continue to test, develop, 
listen, partner, etc.
    Mr. Clay. Thank you for that answer.
    Mr. Hodges, it's my understanding that the residency rules 
for the American Community Survey require a person to be living 
at an address for 2 months to be counted. Migrant laborers 
often are not at a single address for 2 consecutive months. Do 
you believe that the procedures in the ACS are adequate to 
capture the migrant labor population in States like Missouri or 
California?
    Mr. Hodges. Certainly the residency rules and the 
differences between the ACS and the census are among those 
technical challenges that I described. I'm not prepared to 
comment specifically on the migrant population, but I would 
note that the core objective of the ACS is to identify 
population characteristics rather than counts, but that with 
the seasonal populations, there is an opportunity actually in 
the ACS to generally do a better job of capturing seasonal 
populations, whereas the census counts, according to usual 
residents, according to April 1st, you would collect data 
through the year and in some seasonal areas get a better sense 
of the size and characteristics of the population than you 
would with a snapshot long form.
    Mr. Clay. I see. Thank you for that answer.
    Mr. Chairman, I will have to cut my questions short. But I 
appreciate the opportunity to talk with the panel. Thank you.
    Mr. Putnam. Thank you, sir, for your interest.
    All of you are in agreement that the ACS is a superior tool 
to the long form; is that correct? Is there anyone who 
disagrees with that statement?
    So, that being the case--and of course you heard the first 
panel with the Census Bureau and the Department; obviously they 
believe the same--is there anyone out there that you are aware 
of that thinks that it's a bad idea to get rid of the long form 
and go to the ACS? Is there any group in the private sector? Is 
there some group of scientists somewhere, or demographers or 
sociologists who think that we are making a big mistake and we 
just didn't invite them to the panel? Are you aware of anyone 
out there?
    Dr. Salvo.
    Mr. Salvo. There are concerns within the community of 
transportation data users that the estimates produced by the 
ACS be based on sufficient sample size, and that the issues 
involving residents and the lack of a single time point--the 
fact that estimates are created over a series of years, there 
is concern within that community about the quality of these 
numbers--and they have called for the Census Bureau to continue 
to pursue their research on how best to refine numbers on 
journey to work, on commuting.
    That is a concern that I am aware of that the Census Bureau 
is attempting to address.
    Mr. Putnam. Anyone else? Have the rest of you heard that?
    South Florida Regional Planning Council transportation 
issues are huge for you. What have you heard from your road 
builders and TPOs and MPOs and everyone else involved?
    Mr. Ogburn. What we hear is that, yes, there are some 
concerns about quality.
    But I'd like to address the issue more broadly, I think, 
than just the transportation planners. And I believe that we 
all understand that this is a new methodology. It's a new way 
of collecting and making use of the data, and there will be a 
learning process for all of us. And I think it's really 
important to understand that the Census Bureau has a process in 
place, at least as we perceive, to attempt to develop answers 
to the questions as they come up, to anticipate many of those 
questions and to have the research done ahead of time.
    You can't transition from a once-every-10-year survey 
focused on April 1st of each decade to a month-to-month survey 
without some very substantial methodological changes. And it 
will cause a great deal of disruption, it seems to me, among 
those of us who do planning on a regular basis, in the 
beginning, until we learn how to use the data. And I would 
suggest that's an important part of the roll-out of the ACS on 
a national level, in making sure that there are opportunities 
for those of us who are engaged in planning activities at the 
local level to learn how to use the data appropriately.
    But I frankly believe that those issues will be overcome as 
we move forward in the national implementation.
    Mr. Putnam. Mr. Hodges.
    Mr. Hodges. I will volunteer that I was once one of those 
who is very skeptical of the American Community Survey. And 
this dates back to the mid-1990's when it was first proposed. 
And I think it's fair to say that the early descriptions of 
this program were not all that appealing to those of us with a 
major stake in small-area data.
    But I would like to point out that through professional 
organizations--we worked extensively with the Census Bureau, 
and the Census Bureau's ACS staff has been very responsive to 
the concerns that we have expressed--and that over the years 
the ACS has evolved into a product that is much more appealing 
to those of us with a stake in small-area data, so that even 
though it's--there are some who have more concerns than others, 
it is a much more appealing product right now, thanks, I think, 
to the collaborative work with the Census Bureau. And we look 
forward to that continuing.
    Mr. Putnam. Mr. Reardon, did you want to add anything to 
that, while I have you? Are you fully satisfied that the 
concerns of rural communities across America, that those 
concerns are met by the ACS?
    Mr. Reardon. Absolutely. I don't know what we would do 
without the data anymore, the fluctuations in a rural community 
are so rapid and so vast. In a population of 14,000, the daily 
obituaries change the face of the county.
    We need this. You know, is Joe working today? I don't know. 
And when we look at the census data in a rural community, were 
we having a good day when they did that? If we did, we don't 
qualify for a lot of grant funding.
    So the American Community Survey data really shows us a 
clearer picture of where we are at today, and I believe it's 
perfect for a rural community. I couldn't see how we could get 
along without it anymore.
    Mr. Putnam. Mr. Hodges raised the issue of the Census 
Bureau working with the professional associations and those of 
you who are on the front lines to improve upon the ACS model. 
Is there any area of concern that any of you have where they 
have not sought the appropriate input, or the outreach has been 
lacking in preparing for this transition to a new mode?
    All right. Very good.
    The information itself, the content of the questionnaire, 
is it up to date? Is it current? Are we asking the right 
questions? Are we sampling correctly and are we seeking the 
right data?
    Ms. Naymark, from the private sector.
    Ms. Naymark. The long form of the American Community Survey 
covers a lot of ground, and I know that there's an issue of 
respondent burden on the American public. But the questions 
included describe the very basics of the demographic, economic, 
social, housing structure which when compared, one against the 
other and with external information, I think are very basic.
    I know all questions that are included have been thoroughly 
examined by the Bureau. They all have some legislative or 
program needs for being on the questionnaire. But from our 
perspective, when combined together, the information in the 
aggregate described communities and characteristics which are 
absolutely essential for understanding change over time and 
across small areas.
    Mr. Putnam. Anyone else?
    Dr. Salvo.
    Mr. Salvo. Just in contrast to what was said earlier, I 
mean, the neighborhood I live in, broadly defined, would have 
14,000 or 15,000 people in it, and everything that was just 
said applies to my neighborhood in an inner city area.
    It's so appropriate to have the two of us comment on this 
because, in effect, I have the same issues that this gentleman 
has. I have the same problems I need to deal with in an effort 
to provide services to people, in an effort to get funding I 
wanted to bring an 8 X 10 picture in here of the look on my 
face when somebody comes to me and says, how are we doing, and 
I cannot tell them how we're doing.
    I don't want to use the word ``guess,'' but it gets pretty 
close to that sometimes. And sometimes decisions ride on things 
that I say, and that's--the ACS is a relief in some ways to 
those of us who are in this position of having to steer people 
to help people out, and despite the bumps in the road--and 
there are going to be bumps in the road--it is a path that we 
want to pursue.
    Mr. Putnam. Anyone else?
    Mr. Hodges.
    Mr. Hodges. I'll just note quickly that if the census and 
ACS were left to the private sector, the questionnaire might be 
much longer than it is already. There may be policy concerns 
that will have the content of the ACS evolving over the years, 
but we recognize that the census and ACS are Federal operations 
for Federal purposes. We derive tremendous benefit from them, 
just the same, and expect to continue to do so.
    Mr. Putnam. Ms. Naymark.
    Ms. Naymark. I would simply add, in the best of all 
possible worlds, from a business perspective, we would love to 
have the American Community Survey and a 2010 long form. As I'm 
using 2000 census--the long form census, I keep thinking, now, 
why is it going to be a good thing that I won't have this ever 
again, because it's incredibly powerful information.
    But, in sum, the tradeoffs of having annual information, 
along with the bumps in the road, in trying to understand 
moving averages and the different characteristics--seasonality, 
etc.--will be a very rich source of information that they think 
will far outweigh another long form. So we understand we cannot 
have that, we can't have both, but long-form data are very 
powerful for us.
    Mr. Putnam. All of you are familiar with the rising levels 
of concern about privacy and confidentiality and their impacts 
on response rates. What are you observing in the individual 
spheres of influence in terms of microlevel trends along that 
area that we should be aware of and the Census Bureau should be 
prepared to adjust to?
    And, second, do you feel that the confidentiality 
provisions of Title 13 are adequate?
    I'll let you start with the first half, Mr. Ogburn.
    Mr. Ogburn. I certainly think the confidentiality 
requirements are adequate, and the history of the Census 
Bureau, I think, with regard to preserving confidentiality is a 
good example of how that has been done, and it has been a very 
good one. The efforts that were made during the 2000 census to 
conduct outreach to the many diverse populations that we find 
in south Florida included an effort to reinforce the commitment 
of the Census Bureau to confidentiality, and I think it was 
largely that and the use of people who had been previously 
selected from within some of those communities that allowed the 
2000 census to be much more successful at completing a count of 
the population in south Florida.
    I think something that we don't bring into the conversation 
very often, but it occurs to me and has been the subject of 
some discussions among some of us in south Florida, is that 
under the circumstances an awful lot of administrative records 
data is being used today increasingly to attempt to answer the 
questions that we're unable to answer because we don't have 
year-to-year small-area data.
    The power of geographic information systems is enabling 
local organizations to go out and establish partnerships with 
those who have individual people's data and their addresses; 
and we attempt to solve some of the questions that we address 
on a day-to-day basis in our planning activities by using that 
data, with guarantees that we must sign for confidentiality in 
the use of that data, to be able to understand these phenomena, 
to be able to better understand how to direct scarce resources 
into the communities that we serve.
    And the possibility that we will have annual ACS data will 
make it much less necessary to delve into that terrain. It will 
make it less common that we will be pursuing individuals' data. 
The use of a sample which can be tabulated at a block group 
level is a much less intrusive approach than the use of the 
administrative records data that we're being forced to move 
toward in the absence of ACS data. I don't know if it's 
possible to present that to the public to garner additional 
support for voluntary participation in the census.
    So I'm not sure what the answer to that is. But I 
personally believe that we run many more risks of invasion of 
our privacy if the use of administrative records data is 
allowed to advance in order to answer these questions in lieu 
of having the ability to have that data coming out of a sample 
that can be dealt with by a government entity that has a long, 
well-established record of protecting confidentiality.
    Mr. Putnam. Thank you. Anyone else?
    Dr. Salvo.
    Mr. Salvo. It's an interesting observation that for the 
2000 census, the Census Bureau, we think, in New York City did 
a fine job in counting. And that's what the census does best; 
it counts very, very well.
    As I indicated earlier, it's almost ironic that by 
increasing the count and reaching out to people that you've 
probably never have found before, you, in effect, have exposed 
a problem, which is this problem in getting people to respond 
to the long form. The people who are very tough to reach are 
the people who are going to be most reluctant to tell you about 
their employment and income and so on.
    What we've observed about the ACS is that the interviewers 
have this ability to educate people, to let them know about the 
survey, to talk to them, to relate to people in a way that the 
temporary work force that was used in 2000 could not. I, like 
my colleague here, was also very reluctant when I first heard 
about the ACS plan. What won me over was exposure to the 
interviewing teams that go out in nonresponse followup to 
elicit responses, their capacity to get people to feel 
comfortable providing them with information and to educate them 
about the importance of that information, sometimes under very 
difficult circumstances.
    And as we reach more and more of our population and as we 
go into those places and approach the hardest to enumerate, we 
need to have people like that asking the questions about 
employment and income, because otherwise, we're not going to 
get that information in any useful form.
    Mr. Putnam. Mr. Reardon.
    Mr. Reardon. Just in an experience that we had, one of the 
ladies who works in my office--she'll tell you she used to be a 
senior citizen, and she received one of the surveys. And she 
came into the office and she said, I know you are aware of 
this. What is this?
    And I said, well, there's a number to call if you have any 
questions.
    She came in the very next day, very excited. They handled 
her question so well, she was pleased and excited to fill out 
the survey.
    So I commend the Census Bureau on the people that they have 
to answer those questions. She was very nervous about it, and 
after one phone call, she was not only at ease with it, she was 
excited, they explained it in such a good way.
    So fortunately, living in a small county, I can talk to 
some of the people who have filled out these surveys, and we 
just run into them occasionally.
    Mr. Putnam. Super.
    Anyone else?
    Ms. Naymark.
    Ms. Naymark. There is nothing more important than 
protecting the confidentiality of the information. I feel very 
confident in the Census Bureau's record at protecting the 
private information that is collected. There's nothing more 
important over the long term.
    The business community has similar issues. What we're 
hearing from our guests and throughout the business community 
is how important and increasingly important the issue of 
privacy is--education policies demonstrating, you know, your 
record, both for business and for the Census Bureau--working 
with partnerships for the Census Bureau to help the people who 
would be responding understand, highly trained interviewers, 
all of those things are highly critical to maintaining that 
trust, because once breached, you know, it is impossible to go 
backward.
    Mr. Putnam. Mr. Hodges for a final word.
    Mr. Hodges. Very briefly, a similar situation to what Mr. 
Ogburn described exists in the private sector where we are 
seeing two different types of applications, those that do 
involve the use of individual data, targeting individual 
consumers by name and address, and those which, by contrast, 
focus on neighborhood-level data.
    In none of the individual consumer applications that I'm 
aware of has there been any interest at all in working through 
the census or the ACS, it is always through the private 
consumer data bases; so that I've always viewed that the census 
and the ACS would fit into this as well. The ACS and the census 
would always be the contrast, those applications involving 
neighborhood-level applications, preserving confidentiality of 
the individuals.
    Mr. Putnam. Thank you very much. I want to thank all of you 
on the second panel and all of our witnesses for their 
testimony today. The subcommittee looks forward to working with 
all of you as we move toward a final determination on the ACS, 
which should be made very soon by the Congress.
    I also want to thank Mr. Clay for his participation and his 
interest in these issues. In the event that there are 
additional questions we did not have time for today, the record 
shall remain open for 2 weeks for submitted questions and 
answers.
    I want to thank you again for coming over here. We had a 
very balanced second panel, rural America, inner city America, 
very international flavor to it; and certainly the private 
sector's influence as well. So you added to the dialog greatly.
    With that, the meeting is adjourned.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
